VIRGINIA:
Jn the Supreme Gawd of, Virginia held at the Supreme Gawd {Building. in the
City of t/lichmand on {jfuvu>day the 23>td day of July, 2020.
Warren Scott Taylor,
against

Appellant,

Record No. 191632
Circuit Court No. CL19-393

Commonwealth of Virginia,

Appellee.
From the Circuit Court of Page County

Upon review of the record in this case and consideration of the argument submitted in
support of the granting of an appeal, the Court is of the opinion there is no reversible error in the
judgment complained of. Accordingly, the Court refuses the petition for appeal.

A Copy,
Teste:
Douglas B. Robelen, Clerk
By:
Deputy Clerk

!

VIRGINIA: IN THE CIRCUIT COURT OF PAGE COUNTY

WARREN SCOTT TAYLOR,
Petitioner

CL19-393

v.

COMMONWEALTH OF VIRGINIA
Respondent

ORDER
Came now the Petitioner, Warren Scott Taylor, pro se, and the Commonwealth, by her
counsel, Deputy Commonwealth’s Attorney Hona White, Esq. on the Expungement of Police and
Court Records pursuant to Va. Code § 19.2-392.2. On September 24, 2019, a hearing was held
on this most recent petition for expungement, evidence was taken and the litigants made
arguments to the Court. Based on the foregoing, the Court finds the following:
1. The Petitioner was convicted of Third Offense Driving Under the Influence (docket
number CR01-184). A refusal charge
(docket number CR01-190) in the same set of facts
i
and circumstances was nolled pressed on October 10,2001.
2. The reports, documents, and orders regarding the refusal (including the sentencing order
for the Third Offense Driving Under the Influence) all reference the refusal.
3. Expungement of the “police and court records” regarding the refusal would be impossible
without implicating the “police and court records” of the Third Offense Driving Under
the Influence CONVICTION.

4‘

'

4. The Petitioner conceded during the hearing that his ultimate objective was to attack the
Third Offense Driving Under the Influence conviction based on his belief that his initial
arrest on that matter lacked sufficient probable cause and thus the subsequent conviction
was illegal.
5. The Commonwealth’s attorney objects to the petition.
6. The Petitioner’s criminal history was reviewed by Court as required by law. The
Petitioner’s criminal history also includes other convictions, including multiple
misdemeanors (Obscene Phone Calls and Disorderly Conduct).
7. Va. Code § 19.2-392.2 provides that a Petitioner may have police and court records
expunged if such Petitioner is acquitted or a nolle prosequi is taken or the charge is
otherwise dismissed.
8. Furthermore, Va. Code § 19.2-392.2 provides such records after acquittal, nolle prose or
dismissal may only be expunged “if the court finds that the continued existence and
possible dissemination of information relating to the arrest of the petitioner causes or may
cause circumstances which constitute a manifest injustice to the petitioner.... Otherwise,
it shall deny the petition.”
9. The Third Offense Driving Under the Influence charge is a conviction- not an acquittal,
nolle prosequi or dismissal. Consequently, records of this charge are not subject to
expungement under Virginia law. However, those records would be implicated in
expungement of the “police and court records” regarding the nolle prossed refusual.
10. The Petitioner has consequently not shown that the “existence and possible dissemination
of information relating to the arrest of the petitioner causes or may cause circumstances
which constitute a manifest injustice to the petitioner.”

Based on the foregoing findings, it is hereby ADJUDGED, ORDERED and DECREED that
the Petitioner’s petition for expungement is DENIED. The Petitioner’s objection is noted.
Endorsement of this order is dispensed with pursuant to Va. Sup. Ct. Rule 1:13. The Clerk shall
send a certified copy of this order to the Commonwealth’s Attorney and to the Petitioner.

odkP
Date

U0

Additional material
from this filing is
available in the
Clerk's Office.

